                                                               UNITED STATES DEPARTMENT OF COMMERCE
                                                               The Inspector General
                                                               Washington, D.C. 20230


September 5, 2012

The Honorable Darrell E. Issa
Chairman
U.S. House ofRepresentatives
Committee on Oversight and Government Reform
2157 Rayburn House Office Building
Washington, D.C. 20515

Dear Chairman Issa:

This responds to your letter of August 3, 2012 regarding reporting of information by the
Department of Commerce Office oflnspector General (OIG) to Congress. Your letter seeks
written response to three questions, which we address in tum below. We appreciate the
oversight of the Committee and welcome the opportunity to provide you with any additional
clarification you may need as to the manner in which the OIG informs Congress.

Question 1: Since January 1, 2009, have you issued any seven-day letters? If yes, please
describe the matters involved.

Response: No. We have not issued any "seven-day letters" since January I, 2009.


Question 2: Since January I, 2009, have there been any serious or flagrant problems at your
agency that were not reported to Congress? If yes, please describe the matters and explain why
Congress was not informed.

Response: No. All such problems ofwhich we have become aware since January 1, 2009, have
been repm1ed to Congress.


Question 3: Please explain what you and your staff understand section 4(a)(5) of the IG Act to
reqmre.

Response: We view section 4(a)(5) to be a critically important provision in that it establishes the
dual reporting concept unique to Offices of Inspectors General. Pursuant to section 4(a)(5) the
OIG is responsible to keep both the Secretary of Commerce and Congress "fully and cunently
informed ... concerning fraud and other serious problems, abuses, and deficiencies relating to"
Commerce programs and operations. The OIG fulfills this important obligation to Congress
through various means and extensive efforts that reach far beyond the requirement in section 5
that the OIG issue semiannual reports to Congress. Rather, the OIG takes an active approach
toward its obligation to inform Congress and strives to maintain strong working relationships
with cognizant committees and subcommittees.
The OIG takes numerous steps to ensure Congress is fully and currently informed, including:

      • 	 Providing briefings to staff of committees with jurisdiction concerning particular
          allegations or concerns with fraud and other serious problems, abuses, and deficiencies
          relating to Commerce programs and operations.

      • 	 Meeting regularly with staff of committees with jurisdiction, as well as the Department's
          appropriators, to inform them concerning the work completed, underway, or planned by
          the OIG, as well as to listen to the viewpoints and concerns of those individuals regarding
          Commerce programs and operations.

      • 	 Posting completed audit and evaluation reports to the OIG website. The OIG also
          provides electronic copies of these reports directly to appropriate Congressional
          committees so as to alert them to the matter and encourage committee staff to ask
          questions concerning that work.

      • 	 Fulfilling a Congressional request for a biannual report on closed OIG investigations,
          evaluations, and audits conducted by the OIG that were not disclosed to the public.

      • 	 Testifying before Congressional committees whenever requested. Since January 2009,
          we have delivered Congressional testimony on 17 occasions.

      • 	 Responding promptly to varied requests by Committees and Members for information.

We value the relationships that we have established with the various committees that oversee our
office and Commerce programs. These relationships underpin the OIG's steadfast efforts to
ensure that Congress is fully and currently informed.

Again, we appreciate the oversight of the Committee. If you have any questions, or we can be of
further assistance, please do not hesitate to call me at (202) 482-4661.

Sincerely,


'(~,~....__..
Todd J. Zinser

cc:      The Honorable Elijah E. Cummings, Ranking Minority Member
